No. 20-1088
IN THE

pìéêÉãÉ=`çìêí=çÑ=íÜÉ=råáíÉÇ=pí~íÉë=
_______________

DAVID and AMY CARSON, as parents and
next friends of O.C., and TROY and ANGELA NELSON,
as parents and next friends of A.N. and R.N.,
Petitioners,
v.
A. PENDER MAKIN, in her official capacity as Commissioner of the Maine Department of Education,
Respondent.
_______________

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The First Circuit
_______________
BRIEF OF INNOVATIVE SCHOOLS
AS AMICI CURIAE
IN SUPPORT OF PETITIONERS
_______________
SAMUEL ECKMAN
GIBSON, DUNN & CRUTCHER LLP
333 South Grand Avenue
Los Angeles, CA 90071
(213) 229-7204
seckman@gibsondunn.com

ALLYSON N. HO
Counsel of Record
GIBSON, DUNN & CRUTCHER LLP
2001 Ross Avenue
Suite 2100
Dallas, TX 75201
(214) 698-3233
aho@gibsondunn.com

Counsel for Amici Curiae

QUESTION PRESENTED
Does a state violate the Religion Clauses or Equal
Protection Clause of the United States Constitution
by prohibiting students participating in an otherwise
generally available student-aid program from choosing to use their aid to attend schools that provide religious, or “sectarian,” instruction?

ii
TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE ................................ 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ............................................................... 2
ARGUMENT ............................................................... 4
I.

CHILDREN HAVE UNIQUE LEARNING
STYLES AND EDUCATIONAL NEEDS. .............. 4

II.

INNOVATIVE SCHOOLS PROVIDE
OPPORTUNITIES TO THOSE LEFT
BEHIND BY TRADITIONAL SCHOOLING. ......... 9

III. PARENTS OUGHT NOT BE UNDULY
CONSTRAINED IN IDENTIFYING AND
SELECTING THE BEST SCHOOL FOR
THEIR CHILDREN’S UNIQUE NEEDS. ........... 12
CONCLUSION .......................................................... 15

iii
TABLE OF AUTHORITIES
Page(s)
4 Different Learning Styles You Should
Know: The VARK Model, University
of Kansas (July 31, 2019),
https://tinyurl.com/p96njfd6 .................................. 5
Alice Y. Kolb & David A. Kolb, The Kolb
Learning Style Inventory 4.0: A
Comprehensive Guide to the Theory,
Psychometrics, Research on Validity
and Educational Applications
(2013), https://tinyurl.com/49msknck ............... 4, 5
Back to School Statistics, National
Center for Education Statistics,
https://tinyurl.com/5aw5wvav ............................... 2
Carol Ann Tomlinson, Leadership for
Differentiated Classrooms, AASA, The
School Superintendents Association,
https://tinyurl.com/2bf5dzby .................................. 8
Differentiated Instruction, Hamburg
Central School District,
https://tinyurl.com/38ncbwac ................................ 6
Differentiated Instruction, Wilmette Public
Schools, https://tinyurl.com/1u9ti17r .................... 6
Digest of Education Statistics, National
Center for Education Statistics,
https://tinyurl.com/9sm34f92................................. 2

iv
TABLE OF AUTHORITIES (continued)
Page(s)
Drew DeSilver, U.S. Students’ Academic
Achievement Still Lags That of Their
Peers in Many Other Countries, Pew
Research Center (Feb. 15, 2017),
https://tinyurl.com/2mzw9nw8 .............................. 2
Elin Johnson, Another Drop in College
Readiness, Inside Higher Ed (Nov. 4,
2019), https://tinyurl.com/52vm8htt ..................... 2
Gng, Education: One Size No Longer Has to
Fit All, Harvard Business School (Nov.
17, 2016), https://tinyurl.com/19t3jda7 ................. 6
K-12 Disparity Facts and Statistics,
UNCF, https://tinyurl.com/tyb8r7vm .................... 2
Neil Fleming & David Baume, Learning
Styles Again: VARKing Up the Right
Tree!, Educational Developments
(2006), https://tinyurl.com/557y3vs9 ..................... 5
Rahmatullah Bhatti & William M. Bart,
On the Effect of Learning Style on
Scholastic Achievement, 16 Current
Issues in Education 1 (Aug. 19, 2013) ................... 5
Rebekah Clayton, The Case Against a OneSize-Fits-All Education, EF Academy Blog,
https://tinyurl.com/qyvzllch ................................... 7

v
TABLE OF AUTHORITIES (continued)
Page(s)
SFUSD Veers Away from Honors Classes,
San Francisco Examiner (Feb. 12,
2012), https://tinyurl.com/rchzv8 ......................... 8
Stavros Yiannouka & Zineb Mouhyi,
There Is No One-Size-Fits-All School
Model: Developing a Flexible and
Innovative Education Ecosystem,
Brookings Institution (Apr. 3, 2018),
https://tinyurl.com/4rukj5db.......................... 12, 13
Stephen Petrina, Curriculum and
Instruction for Technology Teachers
(2004), https://tinyurl.com/6w933zf9 ..................... 5
Tara Garcia Mathewson, States Increasingly
Extend Charter-Like Flexibility to District
Schools, Hechinger Report (Aug. 15,
2019), https://tinyurl.com/345eh9z4 ...................... 8
Valerie Strauss, Teacher: A One-Size-FitsAll Approach to Instruction Is Stifling
Our Classrooms, Washington Post (Dec.
23, 2016), https://tinyurl.com/nklk75w0 ............... 7
What Is Differentiated Instruction?, San
Francisco Unified School District,
https://tinyurl.com/52zyheab ................................. 6
What Is Differentiated Instruction?,
Stamford Public Schools,
https://tinyurl.com/s9zpe2cn.................................. 6

INTEREST OF AMICI CURIAE1
Build UP is the Nation’s first and only workforce
development model that provides low-income youth
career-ready skills through paid apprenticeships with
industry-aligned secondary and early-postsecondary
academic coursework, leading them to become educated, credentialed, and empowered civic leaders, professionals, homeowners, and landlords. Founded in
2018, Build UP operates two campuses in Birmingham, Alabama, and is in the process of opening a third
in Cleveland, Ohio. It currently has 65 students enrolled for the 2020–2021 school year.
Kuumba Preparatory School for the Arts is an African-centered private school located in southeast
Washington, D.C. The school offers a year-round nontraditional program to toddlers, pre-schoolers, intermediate, and high-school students in an intimate setting for academics, culture, and the arts. Its goal is to
assist children in developing their character and artistic talent through holistic education, and to develop
students’ self-awareness through historical and cultural linkages that will fulfill their sense of purpose.
Amici have an interest in this case because they
employ innovative and nontraditional methods to ed-

1

Pursuant to Rule 37.6, counsel for amici curiae states that no
counsel for a party authored this brief in whole or in part and no
one other than the amici and its counsel made a monetary contribution to fund the preparation or submission of this brief. Pursuant to Rule 37.2, counsel for amici curiae states that counsel
for Petitioners and Respondent received timely notice of intent
to file this brief, and each has consented in writing to the filing
of this brief.

2
ucate the whole student, emphasizing not only academic performance, but also character development
and community engagement. Many of their students
depend on government tuition assistance.
INTRODUCTION AND
SUMMARY OF ARGUMENT
It is no secret that the United States’ educational
system is underperforming. The number of students
who graduate high school ready for college is nearing
historic lows. Elin Johnson, Another Drop in College
Readiness, Inside Higher Ed (Nov. 4, 2019), https://tinyurl.com/52vm8htt. America continues to lag other
developed countries academically, with one recent survey of 15-year-olds in 71 countries ranking the United
States 38th in mathematics, 24th in science, and 24th
in reading. Drew DeSilver, U.S. Students’ Academic
Achievement Still Lags That of Their Peers in Many
Other Countries, Pew Research Center (Feb. 15, 2017),
https://tinyurl.com/2mzw9nw8. Meanwhile, educational achievement varies widely within the country,
with Black and Hispanic students consistently trailing White and Asian students in reading and mathematics. See K-12 Disparity Facts and Statistics,
UNCF, https://tinyurl.com/tyb8r7vm.
There is no easy way to reverse this disturbing
trend. And there is no one policy program that can be
expected to work for each of the Nation’s 56.4 million
school-age children in each of our 13,688 school districts. See Back to School Statistics, National Center
for
Education
Statistics,
https://tinyurl.com/5aw5wvav; Digest of Education Statistics,
National Center for Education Statistics, https://tinyurl.com/9sm34f92. For precisely this reason, it is

3
crucial that educators have the flexibility to experiment with new methods for reaching those students
who are being left behind, and that parents have the
freedom to select the schools that give their children
the best chance to achieve their full potential.
Amici operate innovative schools founded on the
principle that different students learn differently, and
that it is the responsibility of educators to embrace
students’ unique capacities as a tool for learning, not
an obstacle to it. One amicus, for example, incorporates into its curriculum African-centered concepts,
including African history and culture, as a means to
build the character and develop the self-awareness of
its largely African-American student body. Another
amicus supplements in-class learning with paid apprenticeships in students’ neighborhoods, providing
students not only practical learning and an income,
but a connection to—and investment in—their communities.
Despite amici’s divergent approaches, each has
had remarkable success preparing students to thrive
in an increasingly diverse and demanding world. But
the greatest challenge remains ensuring that parents
and students can take advantage of the educational
opportunities that are best suited to their needs. Unfortunately, the First Circuit’s decision imposes unnecessary and artificial constraints on families’ access
to these opportunities by excluding from tuition assistance programs any school that is deemed insufficiently secular. And the adverse effects of this decision will be most acutely felt by those who already
have the fewest opportunities open to them.

4
For these reasons, the Court should grant certiorari and reverse the decision below.
ARGUMENT
I.

CHILDREN HAVE UNIQUE LEARNING STYLES AND
EDUCATIONAL NEEDS.

As any parent knows, every child is different. This
commonsense observation extends not only to interests and inclinations, but also to what children bring
to the classroom and how they learn once they are
there. While schools across the country have taken
steps to tailor instruction to the particular needs of
individual students within the classroom, structural
hurdles—from class size to resource constraints to
concerns about quality control—have limited their
ability to do so in a widespread and effective way. As
a result, it is crucial to promote differentiation and
specialization among schools as well, allowing different schools to adopt different techniques aimed at different students with different needs.
Although researchers have posited various taxonomies to describe students’ learning styles, they all
agree that students learn in different ways. One
prominent approach, for example, “portrays two dialectically related modes of grasping experience . . . and
two dialectically related modes of transforming experience.” Alice Y. Kolb & David A. Kolb, The Kolb
Learning Style Inventory 4.0: A Comprehensive Guide
to the Theory, Psychometrics, Research on Validity and
Educational Applications 7–8 (2013), https://tinyurl.com/49msknck.
Based on “one’s genetic
makeup, particular life experiences, and the demands
of the present environment, a preferred way of choosing among these four learning modes is developed,” id.

5
at 9, resulting in nine different learning styles: Initiating, Experiencing, Imagining, Reflecting, Analyzing,
Thinking, Deciding, Acting, and Balancing, id. at 14–
15. Another common typology, “VARK,” classifies students as Visual Learners, Auditory Learners, Reading/Writing Learners, or Kinesthetic Learners based
on how they most effectively internalize information.
See 4 Different Learning Styles You Should Know: The
VARK Model, University of Kansas (July 31, 2019),
https://tinyurl.com/p96njfd6.
A student’s academic achievement is highly correlated to the match between his learning style and the
teaching methods employed by his educators. Research confirms “that teachers and administrators are
able to improve the quality of instruction in their
schools when they are aware of the learning styles of
their students.” Rahmatullah Bhatti & William M.
Bart, On the Effect of Learning Style on Scholastic
Achievement, 16 Current Issues in Education 1 (Aug.
19, 2013). And as two scholars have observed, “knowing one’s learning style can be beneficial if learners
take the next step, and consider how and when they
learn, as part of a reflective, metacognitive process,
with action to follow.” Neil Fleming & David Baume,
Learning Styles Again: VARKing Up the Right Tree!,
Educational Developments 3 (2006), https://tinyurl.com/557y3vs9; see also Stephen Petrina, Curriculum and Instruction for Technology Teachers 125
(2004), https://tinyurl.com/6w933zf9 (“We have
learned quite a bit about accommodating the variability of students through research into instructional
methods and learning styles. If we vary our methods,
we have learned, we accommodate a wider range of

6
learning styles than if we use one method consistently.”).
In response to this research, schools across the
country have endeavored to incorporate differentiated
instruction, tailored to the individual needs of students, into the classroom. In New York City, for example, the City’s Department of Education “launched
iZone, a community of over 300 schools to test innovative classroom methods and technologies with the goal
of ‘designing schools around the needs, interests, and
motivations of individual students, by personalizing
rather than standardizing the model of schooling and
learning.’” Gng, Education: One Size No Longer Has
to Fit All, Harvard Business School (Nov. 17, 2016),
https://tinyurl.com/19t3jda7. In Connecticut, “[t]eachers in Stamford Public Schools practice differentiated
instruction,” in which “[e]very student is a unique
learner with academic strengths and weaknesses” and
“[c]lassrooms are designed to foster individual exploration, continued growth and educational independence.” What Is Differentiated Instruction?, Stamford
Public Schools, https://tinyurl.com/s9zpe2cn. These
schools are not outliers.2
While these developments are promising, there
are limits on teachers’ ability to tailor education for
the divergent needs of students within a classroom.

2

See, e.g., Differentiated Instruction, Wilmette Public Schools,
https://tinyurl.com/1u9ti17r (“In differentiating instruction,
teachers address student learning differences by modifying content, process, product, and environment.”); What Is Differentiated Instruction?, San Francisco Unified School District,
https://tinyurl.com/52zyheab; Differentiated Instruction, Hamburg Central School District, https://tinyurl.com/38ncbwac.

7
Among other things, resource constraints make it difficult for teachers to provide tailored instruction to
large and heterogeneous classes comprising many different students with many different needs. See Rebekah Clayton, The Case Against a One-Size-Fits-All
Education,
EF
Academy
Blog,
https://tinyurl.com/qyvzllch (“Many schools use only a single
mode of teaching because, in practice, the resource[s]
required to create a varied learning experience is different from that of writing a lecture or creating a PowerPoint.”). And concerns about quality control create
an incentive for administrators to maintain fixed
standards across classrooms at the expense of individualization. See Valerie Strauss, Teacher: A One-SizeFits-All Approach to Instruction Is Stifling Our Classrooms, Washington Post (Dec. 23, 2016), https://tinyurl.com/nklk75w0 (“In an effort to minimize gaps in
teacher quality, some education reformers are pushing
a routinized, one-size-fits-all approach to instruction
and classroom culture.”).
And of course, even similar types of learners will
come to the classroom with different backgrounds and
aptitudes. A brilliant student will struggle to keep up
in a classroom where she is not fluent in the language
of instruction. And a student who struggled in one
subject in a prior school or in a prior year will require
additional attention to get up to speed. Thus, as one
commentator observed: “The challenge . . . for school
leaders is to address both equity and excellence in today’s schools. How can you provide access for struggling learners to high-level, potent and engaging
learning opportunities without denying the needs of
highly able learners to work at a pace and level of complexity appropriate to their special learning needs?”

8
Carol Ann Tomlinson, Leadership for Differentiated
Classrooms, AASA, The School Superintendents Association, https://tinyurl.com/2bf5dzby; see also SFUSD
Veers Away from Honors Classes, San Francisco Examiner (Feb. 12, 2012), https://tinyurl.com/rchzv8 (“In
diverse classes, teachers can adjust lessons to fit different children, whether they need enrichment or extra help with the basics. But this approach, called ‘differentiated instruction,’ can be difficult when classsizes are large and the range of abilities wide.”).
As a result, it is imperative to foster differentiation among schools, and to allow parents to select the
school that best fits the needs of their children. Some
public school systems have already taken steps to do
this. In Massachusetts, which has extended to public
schools the flexibility typically afforded to charter
schools, one district school “has used its flexibility to
create a bilingual high school for a predominantly Latino student body, giving immigrant students a way to
excel academically while they learn English and
American-born Latinos a way to connect with their
culture through language.” Tara Garcia Mathewson,
States Increasingly Extend Charter-Like Flexibility to
District Schools, Hechinger Report (Aug. 15, 2019),
https://tinyurl.com/345eh9z4. Another “adopted a trimester system to accept kindergartners three times
per year, once they turn 5, changing a traditional cutoff that requires kids turning 5 after Sept. 1 to wait an
entire year to start school.” Id.
But such experimentation is still the exception rather than the rule within traditional schools. As a result, most innovation aimed at providing targeted education is occurring in the private sphere—including
in innovative schools like those operated by amici.

9
II. INNOVATIVE SCHOOLS PROVIDE OPPORTUNITIES
TO THOSE LEFT BEHIND BY TRADITIONAL
SCHOOLING.
Amici operate innovative schools that deploy cutting-edge methods to get the most out of their unique
student populations. Although they take different approaches to their educational mission, they have each
had remarkable success preparing a new generation
of leaders to thrive in our increasingly complex world.
Kuumba Preparatory School of the Arts is an African-centered private school located in southeast
Washington, D.C. that enrolls children from toddlers
to high-school seniors. Taking its name from the Swahili word for “creativity,” Kuumba’s mission is “to develop the Artist/Scholar” by using the arts to stimulate learning and harnessing the power of theater, music, dance, poetry, and song to develop the whole child.
Serving a predominantly African-American population, Kuumba aims to develop students’ self-awareness through historical and cultural linkages that will
fulfill their sense of purpose and prepare them to play
an intricate role in a diverse and socially complex
world. To this end, the school incorporates African
concepts into its core curriculum—including mathematics, engineering, technology, and social studies—
and teaches African languages and culture. And while
Kuumba’s year-round program is rigorous, the school
takes a holistic approach to education by prioritizing
not only academic performance, but artistic talent and
character development as well, supplementing classroom learning with daily meditation, exercise, and a
100 percent vegan diet.

10
Kuumba parents gush over the school’s success at
fostering the values of community, culture, and character in their children. As one parent reports, “[t]his
school is a village, teaching community and collectivity” and “instill[ing] cultural pride and African centered appreciation” in students. Another parent recounts that, “[b]eing from East Africa, it was important for me to find a school that teaches African
History, African American History, [and] World History,” and “love[s] the fact that [her son] is learning
how to grow his own food, how to be responsible for his
community.” According to another parent: “Kuumba
has given my son more self-confidence since he has
been at the school. The experiences we have had together exploring our history and culture has been eyeopening as well as life changing.” And yet another
parent states that “Kuumba has changed my children’s lives[,] making them more confident and focused on what is important in life.”
Build UP, a private school headquartered in Alabama, is the Nation’s first and only workforce development high school that provides low-income youth
with career-ready skills through paid apprenticeships,
leading them to become educated, credentialed, and
engaged civic leaders, workers, homeowners, and
landlords. Over the course of six years following the
eighth grade, a new cohort of students enters Build
UP’s full-time program, spending half their time in an
academic setting gaining knowledge directly applicable to paid apprenticeships in the real estate and construction sectors, and half their time rehabilitating
blighted and abandoned homes into like-new singlefamily homes and duplexes. At the end of the six-year

11
program, each student earns both a high school diploma and an associate’s degree in his or her chosen
field—and also purchases the deed to at least one of
the properties he or she has rehabilitated with a zerointerest mortgage.
Build UP’s unique model is built on the premise
that combating longstanding systemic inequities requires not just educating individual students, but reversing the vicious cycle whereby struggling communities fall ever farther behind as their most promising
young leaders “escape” to greener pastures elsewhere.
By rehabilitating blighted houses, Build UP’s students revitalize communities and prevent the further
erosion of surrounding property values. And by taking ownership of those properties upon graduation,
students gain an important link to—and investment
in—their neighborhoods. In the words of Build UP’s
CEO, Mark Martin, “the real innovation behind Build
UP is that our youth are solving their own communities’ problems.”
Although Build UP is just three years old, it has
already enrolled 65 students at two campuses in Birmingham, Alabama, and is in the process of opening a
third campus in Cleveland, Ohio. As one student at
Build UP’s Ensley campus in Birmingham said after
transferring from a school at which he was struggling,
“it really gives me a lot of hope for the future because
I’m getting rid of the blight in my neighborhood. I see
it as an opportunity in life.”
Needless to say, these schools are not for everybody. But that is precisely the point: No school is for
everybody because each student has unique needs.
The innovative schools operated by amici—and the

12
countless other innovative schools operating throughout the country—simply provide another option to
parents and students who are not getting what they
need from more traditional options. Their ability to
take advantage of these options is often the difference
between a high school diploma, economic independence, and a feeling of membership in a community, on
the one hand, and another generation being caught in
the poverty trap, on the other.
III. PARENTS OUGHT NOT BE UNDULY CONSTRAINED
IN IDENTIFYING AND SELECTING THE BEST
SCHOOL FOR THEIR CHILDREN’S UNIQUE NEEDS.
The First Circuit’s decision in this case imposes
artificial and unnecessary constraints on parents’
ability to choose the school best suited to their children’s individualized needs by denying access to generally available tuition assistance when that assistance will be used to send a child to a school deemed
by the government to be insufficiently secular. This
decision will have the perverse effect of hurting those
who are most likely to benefit from innovative schools,
and it will chill creativity and experimentation by
schools that fear such experimentation may cause
their students to lose access to critical tuition assistance.
While debates have raged for decades concerning
the efficacy of nontraditional schooling models in general, the evidence is clear that they have had positive
impacts on disadvantaged and marginalized communities. See Stavros Yiannouka & Zineb Mouhyi, There
Is No One-Size-Fits-All School Model: Developing a
Flexible and Innovative Education Ecosystem, Brook-

13
ings
Institution
(Apr.
3,
2018),
https://tinyurl.com/4rukj5db (“[A]though U.S. charter schools
have on average not delivered better results than public schools, a growing body of evidence indicates that
urban charter schools have had large positive effects
on the test scores of disadvantaged students.”). One
reason for this is that schools in these communities
are more likely to reach beyond pure academics and
focus on developing students’ character, identity, and
sense of community—whether by connecting students
to their cultural heritage (as at the Kuumba Preparatory School for the Arts) or by fostering investment in
their neighborhoods (as at Build UP). See also id. (“A
likely reason [for these schools’ success] is that charter schools targeting disadvantaged students have devised specific strategies to address their students’
needs—including, longer school hours, higher standards, and emphasis on character development.”).
But precisely because these schools go beyond traditional academics to cultivate character and community, they are less amenable to bright-line divides between the secular and the religious. While neither
amicus is strictly sectarian, each builds upon the
moral and religious precepts of the communities it
serves to instill integrity and a sense of belonging in
its students. And they often work in close collaboration with sectarian enterprises to advance their educational mission. For example, Build UP’s classrooms
are located in the Abyssinia Missionary Baptist
Church, where students help maintain the building in
lieu of paying rent.
Of course, the underserved and marginalized communities that have the most to gain from innovative

14
schools that emphasize character development alongside academic achievement are also those least able to
access these options without government assistance.
Most of Build UP’s students receive financial assistance from state-approved Scholarship Granting Organizations under the Alabama Accountability Act of
2013, and many K–12 students at Kuumba receive assistance through Washington, D.C.’s Opportunity
Scholarships. Limiting these programs to schools that
conform to their respective jurisdiction’s standards of
secularity may well force parents to move their children into schools that are less well suited to their families’ needs.
But it will not only be the particular students that
lose. Innovative schools are a proving ground for new
pedagogical methods that could, if successful, expand
to new contexts. But if these schools fear that their
innovative methods may compromise their students’
ability to secure vital tuition assistance from public
sources, they will likely abandon those plans to the
detriment of the broader education community.
There is no reason to invite these adverse consequences. Parents are more than capable of evaluating
the needs of their children and selecting the best
school to meet those needs. In some cases, those needs
will be best served by traditional public schools; in
others, they will be better served by secular private or
charter schools; and in still others, students will
thrive in religious or innovative schools. The government should not force parents to choose one type of
school over another, but nor should it deny parents access to a school that presents their children with the
greatest opportunity to reach their full potential.

15
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted.
SAMUEL ECKMAN
GIBSON, DUNN & CRUTCHER LLP
333 South Grand Avenue
Los Angeles, CA 90071
(213) 229-7204
seckman@gibsondunn.com

ALLYSON N. HO
Counsel of Record
GIBSON, DUNN & CRUTCHER LLP
2001 Ross Avenue
Suite 2100
Dallas, TX 75201
(214) 698-3233
aho@gibsondunn.com

Counsel for Amici Curiae

March 11, 2021

